CERTIFICATE OF SERVICE
NO. TBD
Randolph George
Petitioner(s)
v.
United States of America
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
RANDOLPH GEORGE PETITION FOR EXTRAORDINARY WRIT, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Avenue
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for United States of America

Lucas DeDeus

June 28, 2019
SCP Tracking: Parker, Esq.-1230 Rosecrans Avenue, Suite 300-Cover White

